HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Bon Secours-Venice Hospital, Venice, Florida, (A-04-96-01139)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Bon Secours-Venice Hospital, Venice, Florida," (A-04-96-01139)
February 6, 1997
Complete
Text of Report is available in PDF format (833 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1, 1994 through December 31, 1994.
The Operation Restore Trust reviewers questioned $87,105 in charges reported for the 32 sample beneficiaries in our study.
This amount is comprised of $10,182 related to occupation and physical therapy services determined to be medically unnecessary;
$73,873 in inappropriate payments for supplies and equipment; and $3,050 of drug, laboratory, and Part B services which
were not documented. Therefore, we are recommending an adjustment of the above charges and for the fiscal intermediary
to perform a focused review to identify and recoup overpayments made to this skilled nursing facility, for periods since
our review period.